No. 20-768
IN THE SUPREME COURT OF THE UNITED STATES
_________________
GERARDO SERRANO, PETITIONER
v.
UNITED STATES CUSTOMS AND BORDER PROTECTION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENTS IN OPPOSITION, via email and firstclass mail, postage prepaid, this 16th day of March 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,902
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 16, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 16, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0768
SERRANO, GERARDO
U.S. CUSTOMS & BORDER PROTECTION, ET AL.

THOMAS G HUNGAR
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-955-8558
THUNGAR@GIBSONDUNN.COM
ROBERT EVERETT JOHNSON
INSTITUTE FOR JUSTICE
16781 CHAGRIN BLVD.
#256
SHAKER HEIGHTS, OH 44120
703-682-9320
RJOHNSON@IJ.ORG

